2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

Le g al Briefs E-Mail Address:

Ese, 1925 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-951

MARY STEWART, as Administrator of the
Estate of Luke O. Stewart, Sr., Deceased,
Petitioner,

Vv.

CITY OF EUCLID, OHIO, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the MOTION FOR LEAVE TO
FILE AND BRIEF OF THE INSTITUTE FOR JUSTICE AS AMICUS CURIAE IN SUPPORT OF
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 5994 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 21st day of January, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

 

 

GENERAL NOTARY-State of Nebraska & é Z d,
1 RENEE J. GOSS 9. ¢ bes hia q

Notary Public Affiant 40546
